<html>
<title> - AL-QAEDA IN AFGHANISTAN AND PAKISTAN: AN ENDURING THREAT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                 AL-QAEDA IN AFGHANISTAN AND PAKISTAN: 
                           AN ENDURING THREAT

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2014

                               __________

                           Serial No. 113-156

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                         U.S. GOVERNMENT PRINTING OFFICE 

88-017PDF                      WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, Massachusetts
SCOTT PERRY, Pennsylvania            AMI BERA, California
STEVE STOCKMAN, Texas                ALAN S. LOWENTHAL, California
RON DeSANTIS, Florida                GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. David Sedney (Former Deputy Assistant Secretary for 
  Afghanistan, Pakistan, and Central Asia, U.S. Department of 
  Defense).......................................................     4
The Honorable Michael A. Sheehan, distinguished chair, Combating 
  Terrorism Center, United States Military Academy at West Point.    15
Mr. Thomas Joscelyn, senior fellow, Foundation for Defense of 
  Democracies....................................................    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. David Sedney: Prepared statement.............................     6
The Honorable Michael A. Sheehan: Prepared statement.............    18
Mr. Thomas Joscelyn: Prepared statement..........................    24

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45

 
        AL-QAEDA IN AFGHANISTAN AND PAKISTAN: AN ENDURING THREAT

                              ----------                              


                         TUESDAY, MAY 20, 2014

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:32 p.m., in 
room 2200, Rayburn House Office Building, Hon. Adam Kinzinger 
presiding.
    Mr. Kinzinger. The subcommittee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions, and extraneous materials for the record, subject to 
the length limitation in the rules. I want to say on behalf of 
all of us, thank you to our witnesses for being here to talk 
about what I think is an extremely important issue, the issue 
of the future of what we are seeing with regards to al-Qaeda in 
Afghanistan and Pakistan. As we actually look forward right now 
at a post-2014 plan in Afghanistan, we see that the threat of 
al-Qaeda, in my mind, has not diminished really at all from 
what we saw pre-9/11. We continue to see a country that is 
overridden by al-Qaeda. It is no secret that I support a 
strong, robust, residual force to protect the significant 
strides that we have made in Afghanistan.
    I recently had the privilege of leading a CODEL to 
Afghanistan and Pakistan this past November with the hope of 
getting an objective view of what is needed on the ground by 
our troops, our commanders, and our State Department personnel 
serving in the region. I came away with renewed sense of 
optimism on happenings on the ground. The Afghan forces have 
been improving. The green on blue killings that was strategized 
by our enemy to try to undermine the sense of trust that exists 
have been on the decline. Infiltrators have been sharply cut 
down, and we are no longer conducting unilateral missions 
except for counterterrorism operations. With that said, al-
Qaeda remains very strong.
    Reducing our footprint in Afghanistan will inevitably 
curtail our ability to directly confront al-Qaeda in the 
region. When making post-2014 troop level determinations, we 
must fully evaluate the risk that comes with a too aggressive 
drawdown. To arbitrarily pick a number based on political 
expediency, diminishes the sacrifice that our brave men and 
women continue to make in Afghanistan.
    You know, I remember in 2001, I was actually driving to 
work, and I had just graduated from Illinois State University, 
and I remember hearing that a plane hit the World Trade Center 
and it went through my mind as a newly minted private pilot, I 
said, well, how in the world can a plane hit a building on a 
beautiful morning? And then I heard a second plane hit the 
World Trade Center, and then the field in Pennsylvania, and the 
Pentagon not far from here.
    And at that point, I think American life changed 
completely. Up through the 1990s, we were under this impression 
that America was a country that was protected by two oceans, 
the idea of any kind of a terrorist attack was always for over 
there, and not necessarily for here with the exception of the 
occasional domestic terrorist. And that whole reality was 
changed.
    And as a country, we mobilized to this idea of defeating 
al-Qaeda where they exist. This idea of finding America's 
enemies that would seek to destroy us, and, in essence, 
destroying them first and depriving them of their ability to 
recruit more people and more fighters. And I think when you 
look at the history of both Iraq and Afghanistan, we can judge 
the last 10 to 13 years and say there were things we could have 
done better. I think there are things we could have done worse. 
When I look into Afghanistan today and I see girls going to 
school, I see women with rights that they didn't have prior to 
9/11, I see al-Qaeda with the fear that there is going to be a 
missile that strikes them at any moment, I think we have made a 
lot of gains.
    And my big concern, and one of the things I look forward to 
hearing from the witnesses about, my big concern is that for 
the hope of political expediency, as I briefly touched on, we 
are going to end what President Obama called ``the Good War,'' 
the war in Afghanistan, that we are going to end this 
prematurely simply to follow a campaign promise.
    So I do look forward to hearing from the witnesses and at 
this point I will turn over to the ranking member, Mr. Sherman 
from California, for 5 minutes for his opening comments.
    Mr. Sherman. Thank you, Mr. Chairman. I will be in and out 
of this room because for me, today is a festival of 
subcommittees. We have not only this, but the Asia Subcommittee 
and the Insurance Subcommittee all meeting simultaneously. I 
thank the witnesses for being here. I was hoping to see my old 
friend, Husain Haqqani who I know cannot be here for medical 
reasons. This hearing will help us understand al-Qaeda's 
evolving structure and hopefully help us craft a more effective 
counterterrorism policy. Al-Qaeda has failed to carry out a 
major attack on the United States' homeland, however, the 
danger still remains. Al-Qaeda's structure, of course, has 
become more decentralized with most terrorist activity now 
conducted by its regional and local affiliates.
    Over the past few years, al-Qaeda's core in Pakistan has 
been weakened by the loss of key leaders, most notably, a truly 
heroic attack that netted bin Laden, one that took incredible 
courage from our special forces to carry out, and also took 
very substantial political courage to order. I am sure that the 
efforts by President Carter to rescue our hostages came to mind 
when political leaders had to make the decision as to whether 
to go forward with that mission. And of course, that decision 
was correct.
    Congress should work with the administration to reform the 
Authorization for the Use of Military Force. I was here when 
that was passed. It was passed in haste as it should have been 
with great emotion, which was natural. But it now needs 
substantial revision to balance our desire to deal with 
terrorism on the one hand, and defend our privacy and liberties 
on the other. And now, as we see Boko Haram and other terrorist 
organizations that may not fall under the ambit of the 
authorization to use military force, because they may not 
exactly be linked, may be ideologically linked to al-Qaeda, but 
such terrorist organizations pose just as great a threat to us 
as the al-Qaeda franchises. So whether you are--whether you 
have the al-Qaeda franchise in North Africa, or Yemen, or 
wherever, or you don't, Islamic extremism poses a threat to the 
United States.
    Our systematic effort to dismantle terrorist organizations 
must continue as the President himself said. We would like to 
end this war. It is the longest in our history. But we can't 
end it until the enemy is vanquished. As to whether we are 
leaving Afghanistan too quickly and for political reasons, I 
would have to disagree with our acting chairman. First of all, 
remember, it was not this administration who picked Karzai and 
installed him. And it is Karzai who, to this moment, is 
prohibiting any troops from remaining in Afghanistan through--
past the end of this year.
    The generals, our military staff has determined what is an 
appropriate number of forces to leave there with the goal of 
combating terrorism and training the Afghan Army. This is not a 
political decision. This is an appropriate military decision, 
and I think that we ought to unify behind it.
    The United States, hopefully with a new President of 
Afghanistan, will remain active in that country. We continue to 
offer $25 million reward for Zawahiri. We continue to seek out 
the other key al-Qaeda leadership.
    I would like our witnesses to focus on a number of issues. 
One of those is the current strength and capacities of Afghan 
security forces, and their adversaries, the Taliban, the 
Haqqani network, al-Qaeda itself. The second is the nature of 
the ISI's relationship with the Afghan Taliban, the Pakistani 
Taliban, the Haqqani network, and al-Qaeda, and Islamabad's 
cooperation with the United States. And this is a truly 
difficult to understand situation. It is clear that there are 
elements of the Pakistani Government that are cooperating with 
terrorists, and it is clear that there are terrorists who, 
given the chance, would murder the entire family of many of the 
leaders in the Pakistani Government.
    It is the politics I don't completely understand. Perhaps 
the witnesses will shed some light on it. I hope they also 
focus on how well the Gulf states are in stopping terrorist 
financing and whether there are any elements of the terrorist 
organizations that we are talking about here that some of those 
countries find acceptable as a recipient of charitable dollars. 
And so we have a lot to hear and I will yield back.
    Mr. Kinzinger. Well, thank you, Mr. Sherman. Without 
objection, all of the witnesses' prepared statements will be 
made a part of record. I ask that each witness please keep your 
presentation to no more than 5 minutes and we will begin with 
our first panel of witnesses.
    Mr. David Sedney is the former Deputy Assistant Secretary 
of Defense for Afghanistan, Pakistan, and Central Asia in the 
Office of the Assistant Secretary of Defense for Asian and 
Pacific Security Affairs. Mr. Sedney has received the Secretary 
of Defense medal for Meritorious Civilian Service, Department 
of State's Superior Honor Award six times, and the Department 
of State's Meritorious Honor Award twice. It is nice to have 
you here, sir. Mr. Sedney, we will start with you. You have 5 
minutes.

    STATEMENT OF MR. DAVID SEDNEY (FORMER DEPUTY ASSISTANT 
  SECRETARY FOR AFGHANISTAN, PAKISTAN, AND CENTRAL ASIA, U.S. 
                     DEPARTMENT OF DEFENSE)

    Mr. Sedney. Thank you very much, Mr. Chairman, Mr. Ranking 
Member, representatives, thank you for holding this hearing, 
the subject of which I think is vital to national security. As 
both of you have pointed out in your statement, al-Qaeda 
remains a threat to the United States. There is a narrative 
about al-Qaeda that I think is proving to be increasingly 
wrong, and that narrative is that al-Qaeda is much less of a 
threat today and is on the way to extinction or to strategic 
defeat. That narrative, I find is belied by the facts, and I 
think it is very important for us to look at this and my co-
panelists are more experienced in some of the ramifications, 
but I look at it very much from the perspective of Afghanistan 
and Pakistan. We went into Afghanistan after 9/11 as you 
described, Mr. Chairman, with the explicit intention of 
defeating al-Qaeda and making sure that the Taliban couldn't 
come back to Afghanistan and make a safe haven for Afghanistan 
again for themselves and for al-Qaeda or similar terrorist 
organizations.
    We have succeeded for the time being in Afghanistan. Al-
Qaeda is virtually not present in Afghanistan except for a 
small group in Nuristan, which is primarily right now focused 
on events inside Afghanistan, is not, at least in my judgment, 
is not a direct threat to the United States now, but could be 
in the future if pressure was not continued to be placed on 
them.
    However, where did al-Qaeda go? It went to Pakistan. And as 
the ranking member described, we have kept, as you, Mr. 
Chairman, have described, we have kept strong pressure on al-
Qaeda, but we have not managed to defeat al-Qaeda. Al-Qaeda 
still has a number of leaders there. There are still numbers of 
adherents for al-Qaeda go to Pakistan seeking training, seeking 
entry. Al-Qaeda is very choosey about who they let into their 
ranks, but they continue to have people who want to join. The 
reason for that is what is important about al-Qaeda is not so 
much any individual leader, it is the organization. And what is 
important about the organization is the ideology behind it. And 
that ideology is based on a belief that it is the destiny of 
humanity, to live under a caliphate similar to that which ruled 
in what is now Saudi Arabia almost 1,500 years ago. The al-
Qaeda have been very explicit in that that is their goal, the 
recreation of a caliphate and to have it first in the areas 
where their religion began, but then to have it spread 
throughout the entire world.
    So this is really an ideological conflict, and the 
attraction of people who come to join al-Qaeda is an attraction 
of ideology. They believe in that vision as well. They see the 
United States and our western allies as an obstacle to 
achieving that vision, and they see the country of Afghanistan 
as a place where they played a major role. This is again their 
narrative, in defeating one of the two superpowers of the 20th 
century, the Soviet Union, and that they are now in the process 
of defeating the second superpower, now the world's only 
superpower, the United States in Afghanistan. And they do so 
because they have this narrative because they are less worried 
about what happened yesterday, what's happening today, or what 
is happening tomorrow, than what their destiny is, which is to 
take over, first Afghanistan, and then other areas that they 
want to have the caliphate in.
    The effort in Afghanistan after the United States pushed 
the Taliban out and pushed al-Qaeda out in 2001, has been an 
extremely strong and resilient effort on the part of the 
Taliban with the support of al-Qaeda. When I was in Afghanistan 
from 2002, 2003, and 2004, we clearly had some initial 
successes, but we saw the buildup of opposition to the 
government there, and it was very effective. By 2008, 
Afghanistan was close to falling to the Taliban, and if they 
had, they would have brought al-Qaeda back with them.
    President Obama announced a surge, and put in place a surge 
that pushed the Taliban back, but has far from negated the 
Taliban's ability to threaten the state of Afghanistan. One of 
the most important successes in response to the ranking 
member's question about the capability of the Afghan security 
forces, is success of the Afghan security forces, particularly 
the Afghan Army, which in the recent elections had not just a 
lead role, but almost completely exclusive responsibility for 
protecting those elections against the Taliban's declared 
intention to prevent those elections from happening. Not only 
did they not prevent them from happening, but the elections 
succeeded beyond anyone's expectation, with almost twice as 
many people voting in this year's election as did 5 years ago.
    That is a strategic defeat for the Taliban and a strategic 
defeat for al-Qaeda. That is the kind of strategic defeat that 
we need to continue to inflict by having the kind of strong 
military, civilian, and assistance presence in Afghanistan that 
you described, Mr. Chairman.
    Mr. Kinzinger. Thank you, Mr. Sedney.
    [The prepared statement of Mr. Sedney follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Kinzinger. The Honorable Michael Sheehan is the 
distinguished chair of the Combating Terrorism Center at the 
West Point Military Academy. Ambassador Sheehan has held 
positions at the New York Police Department, United Nations, 
U.S. Department of State, and was appointed by President 
Clinton as Ambassador-at-Large for Counterterrorism. Honored to 
have you here, sir. You have 5 minutes.

 STATEMENT OF THE HONORABLE MICHAEL A. SHEEHAN, DISTINGUISHED 
   CHAIR, COMBATING TERRORISM CENTER, UNITED STATES MILITARY 
                     ACADEMY AT WEST POINT

    Mr. Sheehan. Thank you, sir. Thank you, Mr. Chairman, 
Ranking Member. I will keep my remarks short. My general theme 
is that we need to be a little bit more optimistic in what we 
are going to be able to achieve in Afghanistan and in fighting 
al-Qaeda and its affiliates around the world because sometimes 
our pessimism undermines our will to persevere in a war that I 
think is very winnable if we maintain certain tracks of action.
    Let me highlight five key points from my written testimony, 
if I could, Mr. Chairman. First, that our CT policy in the 
AFPAK region for the last 13 years, actually has been an 
enormous success by the most important metric, and that is to 
prevent al-Qaeda from coming to our homeland and attacking 
again. It is very important to recognize this. We can push 
these guys back when we are determined.
    Number two, the AFPAK area, both sides of the border is a 
unique place on the planet that breeds international terrorism 
and a brand of international terrorism with a history of 
targeting the United States' homeland.
    Number 3, Afghanistan is a winnable war, but we must narrow 
our objectives, be a little bit more optimistic, and we are 
going to need to stay the course a little bit longer, but it is 
winnable. We should not despair. There is too much pessimism 
coming out of the news every day that the Pakistani Government 
is hopelessly corrupt, the Afghan Government is corrupt, the 
Pakistani Government is helping the Taliban, that things are 
horrible. We need to remain a little bit optimistic in order to 
persevere.
    Fourth, a U.S. military and intelligence presence is 
absolutely essential to be in Afghanistan in order for us to 
continue our war against al-Qaeda central, which currently 
resides in Western Pakistan primarily in the FATA, as you know, 
the Federally Administered Tribal Area.
    Fifth, we need to guarantee our mission in Afghanistan. If 
required, in my view, with U.S. air power, directed by our SOF 
elements that are on the ground there, if the Kabul government 
is threatened to be toppled by the Taliban. And if you recall 
that combination of U.S. air power and U.S. special forces 
after 9/11, they routed the Taliban within a few months. That 
is a very lethal combination. Of course, that type of 
authorization will only be provided by the President of the 
United States and the highest levels in Afghanistan. Let me 
quickly elaborate on these five points.
    First, about our counterterrorism policy's enormous 
success. We have to remember that prior to 9/11 when al-Qaeda 
was not under pressure, they attacked us three times 
strategically in 37 months. That is a strategic attack every 
year. They attacked our Embassies in East Africa, the USS Cole, 
and the 9/11 attacks from 1998 to 2001. If you leave al-Qaeda 
alone, they will have the capability to attack us strategically 
either at home or in core assets that are abroad. That is a 
clear lesson of that time. But when we are able to put pressure 
on them, as we have in the FATA primarily over the last 3 
years, we prevented them from being able to organize those 
types of strategic attacks, and they have tried to do so. I 
will go into some of those examples if I have time later.
    Secondly, the AFPAK area is unique. It is the heart of al-
Qaeda that attacked the U.S. historically. It is a unique 
place, a stew of foreign fighters, wannabe terrorists and 
numerous violent jihadi groups with agendas against 
Afghanistan, United States, India, Pakistan. Many of them are 
supported by the Pakistani Government for different agendas. 
They mix together, in a very lethal combination of 
organizations that sometimes work together, sometimes 
independently, but they are very problematic.
    We should recall my nightmare from when I was at NYPD 
someone like Faisal Shahzad, the Times Square bomber, lived in 
Connecticut, smart guy, married, Wall Street guy, traveled to 
Pakistan four times, wanted to get to al-Qaeda, but couldn't 
and was trained by the TTP. Fortunately, his training was bad 
and the bomb in Times Square fizzled out. In my view, that was 
not an accident. His failure was a direct result of the 
pressure we put on those groups in the FATA. If we removed the 
pressure, they will reconstitute the safehouses, training 
areas, lines of communication, indoctrination places that 
existed prior to 9/11 when I was Ambassador-at-Large for 
Counterterrorism and I was looking through different aerial 
images of bin Laden in his camps and we weren't able to get to 
him. They were not under pressure and they were able to attack 
us. We can never allow that to happen again.
    Third point, the U.S. presence in Afghanistan is essential 
to continue providing, to continue pounding al-Qaeda in 
Afghanistan and Pakistan. There is simply no other viable 
alternative than Afghanistan, especially now after Ukraine, the 
countries up in the north, it is very unlikely we are going to 
be able to do anything there, and it is too far away. The 
seaborne area where we conducted operations, launched missiles 
from the Indian Ocean in 1998 and 1999, that doesn't work very 
well either. We need to be in Afghanistan not only because it 
is close, but to continue our human intelligence, our other 
intelligence operations that enable us to pound al-Qaeda in the 
FATA, or in Afghanistan if they try to get back in there.
    Number four. This is a winnable war. Too often we despair. 
The Taliban are not 10 feet tall. They do have sanctuary in 
Pakistan, however, which is extremely problematic. An 
insurgency always needs sanctuary, either in a--ideally, across 
a border which gives them some protection, or in some remote 
area within the country. The Taliban used both, but the border 
area of Pakistan, the support they get from them is extremely 
problematic, and we should understand while that happens, and I 
don't see it stopping any time soon, the Taliban is going to be 
around for a long time. They will likely control areas in 
Afghanistan for a long time. And they will be able to conduct 
the periodic terrorist attacks in Kabul that we see. But I hope 
that the Afghan Government can persevere through that.
    The conditions of the 1990s when the Taliban took over 
Afghanistan do not exist now and their prospects are dim for 
repeating that. One of it has to do with the security forces 
that are in Afghanistan that David Sedney talked to. This is a 
serious army. We also, I have been out many times with their 
special forces units that were trained by our special forces 
units about 14,000 or 15,000 of them. These are tough fighters 
committed to action, multiethnic, and a serious fighting force. 
So it is a very different situation in the 1990s.
    Fifth and finally, I believe we must guarantee our 
commitment to Afghanistan with our U.S. Air Force there 
supported by SOF on the ground, just in case the Taliban try to 
run of the ring highway like they did in 1995 and 1996. If they 
were to do that with a major offensive, we can pound them, 
route them into submission and keep the government secure.
    So in sum, the area of Afghanistan and Pakistan is a vital 
interest to U.S. security. It is uniquely a terrorist threat to 
our homeland. We must remain in Afghanistan in order to deal 
with the threat in Pakistan. Perhaps 10,000 or some other 
number that is kicked around may be enough. But we need to have 
the right forces there in order to sustain that operation. And 
we should be optimistic that we can do that. And my final 
point----
    Mr. Kinzinger. I will have to ask you to wrap it up very 
briefly, sir.
    Mr. Sheehan. My final point, Mr. Chairman, is that al-
Qaeda, unique among other organizations, seeks WMD and would 
use it tomorrow to kill us in mass numbers. Thank you.
    Mr. Kinzinger. Well said. Thank you Mr. Ambassador.
    [The prepared statement of Mr. Sheehan follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Kinzinger. Mr. Tom Joscelyn, is that correct?
    Mr. Joscelyn. That is correct.
    Mr. Kinzinger. All right--is a senior fellow at the 
Foundation for Defense of Democracies, and Senior Editor of The 
Long War Journal, a publication dealing with counterterrorism 
and related issues. Much of his research focuses on how al-
Qaeda and its affiliates operate around the globe, and sir, you 
have 5 minutes.

STATEMENT OF MR. THOMAS JOSCELYN, SENIOR FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Thank you, Congressman, and thank you to this 
committee for inviting me to testify again before you. It is a 
great honor. I am just going to make five quick points. I am 
the counterterrorism nerd, and I tend to delve in the weeds and 
I promise not to do that here very quickly. My five quick 
points are, one of the big things really sort of was eye-
opening for me, I think, for The Long War Journal was that most 
of al-Qaeda's assets since its existence, since its founding in 
1988, have actually not been focused on attacking us. That is 
somewhat of a stark revelation.
    Actually, most of their assets have been focused on other 
things, mainly waging insurgencies against ``local 
governments,'' trying to seize power for themselves throughout 
the Muslim world and throughout South Asia all the way through 
the Middle East, and into North Africa. That is important 
because I think that it is not by any accident that what is 
going on around the world where al-Qaeda groups, al-Qaeda-style 
groups start popping up throughout this whole wide area.
    The second point I would like to make is that there is 
still a lot of confusion about how to define al-Qaeda. You hear 
a lot of talk about al-Qaeda core and everything else as 
affiliates. I think what is really meant by al-Qaeda core is 
actually what is known as the general command of al-Qaeda, and 
this is actually an organization to Mr. Sedney's point, that 
still exists. If you go back to the 9/11 Commission Report, 
there were several committees in the al-Qaeda prior to 9/11. 
These committees still exist. They have been reorganized, they 
have been restaffed, but there is still an infrastructure of 
bureaucracy that al-Qaeda exists. So despite all the successes 
we have had in killing and capturing top al-Qaeda leaders, they 
still have this organization.
    And if you go back to my testimony before this committee 
last July, I pointed out that this organization is not confined 
to South Asia, that some of its leadership in the general 
command is actually elsewhere. And my big point was that al-
Qaeda in the Arabian Peninsula is headed by the protege and 
former aide-de-camp to Osama bin Laden. And in fact, a couple 
of weeks after my testimony, that same guy, Nasser al-Wuhayshi, 
was actually appointed to be the general manager of al-Qaeda 
globally.
    Okay, now this is a core function. So we talk about core 
here, core al-Qaeda and these terms are very loosely defined. 
They don't make a lot of sense to me. I think what you really 
have is an international network organization that has what 
they call their general command which makes decisions for the 
organization.
    And on the third point is, what is this organization 
actually doing in the Afghanistan and Pakistan region? Well, 
one of the main things they have been doing, yes, they have 
been plotting attacks against us unsuccessfully and trying to 
have mass casualty attacks in the West. They have absolutely 
been trying to do that. But one of the other things they have 
been doing, and primarily where their focus has been, is what 
they call their shadow army, which sounds kind of spooky and 
conspiratorial and it kind of is. But what they have done is 
they built this, basically a force multiplier for the 
insurgents in the region to try and make their attacks more 
efficient and effective against Afghan forces, coalition 
forces, and those type of things.
    Now, why is this important? Well, a lot of times we can't 
actually detect al-Qaeda's hand. They don't announce exactly 
what they are doing a lot of times, but we can see it if you do 
very careful analysis. And so al-Qaeda is still very much in 
the region, still very much in the fight in Afghanistan. 
Everybody knows about their hub in Kunar and Nuristan where 
they have a very prominent al-Qaeda leader leading the charge. 
But we detect them elsewhere in other provinces. And in fact, 
one of the few documents released from bin Laden's compound 
reveals that Osama bin laden told his minions basically to 
disperse out of Northern Pakistan to several provinces in 
Afghanistan, and we have been able to track operatives who took 
him up on that.
    The fourth point is that one of the reasons why al-Qaeda is 
still alive or still in the game is they have developed what we 
call strategic depth in Afghanistan and Pakistan. And so what 
former Secretary of Defense Robert Gates called the syndicate 
model. Now, I wish I had come up with this phrase, syndicate, 
to describe it, because it is actually better than anything I 
have got. But Gates is right. And what it is, is they have 
these close relationships with all of these other groups in the 
area, and a lot of these other groups, to Ranking Member 
Sherman's point, actually are sponsored by the ISI. And so what 
al-Qaeda has been able to do, as we kill or capture senior al-
Qaeda leaders, a lot of times they have been able to replace 
those leaders with guys from other groups in the syndicate. And 
that is what makes them so effective and sort of keeps them 
going.
    And finally, when we talk about just a final point about 
the international network of al-Qaeda and what it really is, 
this general command, as I said, doesn't just exist in South 
Asia, Afghanistan, Pakistan, actually it stretches across 
several countries. And some of these groups in these countries, 
these, what we call affiliates or something along those lines, 
I don't actually like the word ``affiliates.'' Some of these 
are actually regional branches of al-Qaeda that have sworn 
allegiance to bayat to Ayman al-Zawahiri, the head of al-Qaeda. 
They answer up the command in the chain to senior leadership in 
Pakistan, and elsewhere, and the best example of that is today 
is Syria, where we see this traffic going back and forth 
between Pakistan and Afghanistan and Syria.
    And it shows, to my mind, that we are not dealing with this 
sort of discrete core entity in Pakistan and Afghanistan that 
can be droned to death, but in fact, an international network 
that poses a lot graver challenges. And I will leave it there. 
Thank you.
    [The prepared statement of Mr. Joscelyn follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Kinzinger. Well, thank you. And again, thank you to the 
witnesses for being here and providing us with your fantastic 
insight. I will go ahead and start with my questions. You know, 
I have always been amazed America has had this, and I guess it 
is a testimony to how, in essence, opposed to war we are at our 
base, at the heart, but any time we get engaged somewhere, we 
immediately start talking about the withdrawal strategy and how 
to leave and how to get out, and I will say that Afghanistan 
has been a very long war. We understand that, but I will remind 
people that America has not yet been defeated on the 
battlefield. When we engage with Taliban or al-Qaeda, we win.
    So the only way we will ever been defeated in Afghanistan 
is if our willpower is defeated, not necessarily our military 
might. And so my concern, and my questions will somewhat center 
around the fact of, you know, in 10 or 20 years the history is 
going to write the decisions that we made today. And we have 
two options: We can either have the history books read that, 
you know, the Afghan people had victory, and the Afghan people 
were able to secure their own country, and women still have 
freedom, and they can go to school, and they can be successful, 
or we can read the thing that said America at a time when we 
were pressing the fight against al-Qaeda and the Taliban 
decided that we had had enough. I guess 1 percent of America 
actually serves in the military. I served and still continue to 
serve in the military, but yet, somehow we have a war fatigue 
despite 99 percent of Americans having never served.
    I also would like to remind Mr. Sherman--he is not here. I 
am not talking bad about him, but Mr. Karzai will be gone 
shortly, and we will have a new President of Afghanistan, I 
think, which will be a positive development. Let me ask the 
entire panel and try to keep it as brief as you can. How many 
us troops do you believe are required to remain in Afghanistan 
post-2014, to combat al-Qaeda and al-Qaeda's allies? And let's 
keep it as short you can. We will just start this way.
    Mr. Sedney. I believe a total force of around 16,000, that 
would be about 10,000 U.S., and about 6,000 NATO is the minimum 
necessary to carry out those dual goals of having the 
capability to carry out counterterrorism operations and train, 
advise, and assist and equip the Afghan Army. A smaller number 
than that becomes purely a self-defense force. They are only 
there defending themselves and don't accomplish anything.
    Mr. Kinzinger. It is just cooking food and protecting the 
fences, basically. Mr. Ambassador.
    Mr. Sheehan. I would agree with that number, sir. That is 
the number that is kicked around interagency, the Department of 
Defense and CIA primarily. My concern is that if we go below 
that, that the CIA will have to withdraw even further back, and 
that we are going to lose our insight into the FATA. Also, the 
military needs to be there to protect the counterterrorism 
assets that conduct the attacks against al-Qaeda. So I agree 
that number is a minimum.
    Mr. Kinzinger. I just remind everybody what we see in Iraq 
today, right, the western--the place where the Marines fought 
the hardest they have fought since Khe Sanh, is now controlled 
by ISIS, because the administration, I believe for a political 
reason, so they could follow through on a political promise, 
pulled all of the troops out of Iraq and we find ourselves 
today with a lawless Western Iraq, also based out of Syria. Mr. 
Joscelyn, in terms of the number of troops.
    Mr. Joscelyn. I am actually not a military expert so I will 
defer to these gentlemen, but I think 10,000 to 20,000 sounds 
about right in terms of the numbers to protect our forces and 
actually keep in the fight there in the region. One of the big 
things that you have to keep your eye on is the ability for the 
drone air strike campaign to keep going, and the bottom line 
is, unless we have the proper forces in place to protect those 
assets and protect those bases, in addition to taking the fight 
to the enemies in Afghanistan, then that is going to 
necessarily impact our ability to strike in Pakistan and 
elsewhere.
    Mr. Kinzinger. How would you all rate the administration's 
current counterterrorism strategy? Does it have one, and if so, 
is it successful? I guess we can start with you, sir, again, 
and then right to left. My right to left.
    Mr. Joscelyn. Well, I think the administration has had 
success in taking out certain key senior al-Qaeda leaders, 
obviously, including Osama bin Laden. I think the Bush 
administration had success in that regard before them. I think 
the problem, again, is I think both administrations early on 
made the same mistake, which is, they define al-Qaeda as this 
sort of this top-down pyramid with a hierarchical structure, 
that if you sort of lop off the top of the pyramid, the whole 
thing crumbles. They had that debate, that discussion about how 
to organize themselves about 20 years ago, and they decided 
against that organizational structure. And, you know, we still 
fight them a lot of times like they are structured that way and 
so they are growing in other ways.
    Mr. Kinzinger. Thank you. Mr. Ambassador, how would you 
rate the current administration's----
    Mr. Sheehan. I should mention, Mr. Chairman, I was the 
Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict. I just left that job last year, so I was 
part of the administration. So do I think they have good 
strategy? I do. Their strategy is to conduct kinetic and direct 
action strikes against those organizations that directly 
threaten the United States or U.S. personnel. For other groups 
that have not yet directly threatened the U.S., the strategy is 
more to assist the host country for them defeating them. So far 
they have been successful. I think they need to stay the 
course. The bottom line metric is protecting the homeland. That 
has been done. But there are a lot of problems out there. I 
think they need to stay the course like they have done the last 
few years and I hope they will.
    Mr. Kinzinger. Mr. Sedney.
    Mr. Sedney. I agree with my former colleague. We served 
together at the Pentagon, Ambassador Sheehan, that the 
administration has had a lot of successes in--on the 
counterterrorism field. However, it is not just--you can't 
distinguish counterterrorism from all of the other aspects of 
our state and governmental policy. And I think, for example, 
the long debate over the last 2 years about whether there 
should be a zero option in Afghanistan has led to improved 
morale for al-Qaeda and others, has led other states such as 
Pakistan to hedge their policies against the possibility of a 
zero option in the United States.
    So while the counterterrorism policy, which I would say is 
sort of a subset of the overall policy, I think has a lot of 
successes, I think the overall ability to counter that has been 
undercut by the fact we have not made that definitive 
commitment to Afghanistan that you mentioned before.
    Mr. Kinzinger. And I think if we exercise the zero option, 
I think we will double or triple the size of al-Qaeda 
overnight, because we will hand them the strongest moral 
victory that they have had in decades. And let me just finally 
say, because I want to live by example, as someone that has to 
bring the gavel down on people, 5,000, 10,000, 15,000 troops 
are kind of a high-risk option, medium risk, and low risk 
option. In my mind, I think we need to put the number of troops 
in theater to provide the low-risk option, both to protect our 
men and women in the field and also to protect the victory for 
the Afghan people.
    So I appreciate all you all answering my questions. At this 
point I would like to recognize Mr. Schneider of Illinois, 
another from the same great State for 5 minutes.
    Mr. Schneider. Thank you, Mr. Chairman, and I want to thank 
the witnesses for your testimony and insight, but also for your 
service long before this.
    Ambassador, I would like to touch on something you said. 
You talked about Afghanistan or AFPAK being unique and 
distinctive. As you were saying, though, I was thinking about 
what is taking place in Syria, in Yemen, in Sinai, and thinking 
that while each of these are unique, there seems to be a lot of 
commonality. And so I guess I will start with a series of 
questions. Is what makes Afghanistan Pakistan so unique from 
the others? What lessons apply across the others? What 
coordination do we see with the affiliates of al-Qaeda in these 
other regions? And what happens, A, if we win, and as I will 
throw out to the whole group, if we are able to win, as you 
say, in Afghanistan, does that just push the balloon out to 
bulging in these other areas?
    Mr. Sheehan. Thank you, sir. Let me try to answer a few of 
those questions. First of all, why is it unique, because of 
their track record. They actually have killed people and blown 
things up in the U.S. and against our other targets, them and 
AQAP. So it is the al-Qaeda central in AFPAK that is my number 
one concern for attacking the homeland, secondly the AQAP, 
which also has a track record. The other organizations right 
now, though potentially very, very problematic, are currently 
focused on the local fight. Whether eventually they shift to 
Europe first and then the U.S., we will see. Certainly, the 
potential is there. They are the same type of folks that are 
committed to attack us, so we have to be prepared for them to 
be able to shift their focus now which is local, to the local 
enemy as they called it, the near enemy, to the far enemy which 
is the United States and Europe. It remains to be seen when and 
if they will do that. But that's why they are unique. Pakistan 
is also unique because of the various groups that are there 
that have been supported by the Pakistani state, groups like 
the Lashkar-e-Toiba that have attacked in India, directed by 
the Pakistani intelligence, murdering people in a hotel in 
Mumbai. This is a unique situation, where a state is actually 
involved in these organizations that are part of the stew I 
talked about earlier that directly threaten us.
    And so these are very serious organizations like the 
Haqqani network, the Pakistani Taliban. They are very well 
funded. They are ideologically determined, and they have 
capability and they have a track record. That is why I worry 
about that area. That is why I believe we have to stay there 
and continue pounding these people relentlessly for quite a 
while.
    Mr. Schneider. Mr. Sedney?
    Mr. Sedney. I agree entirely with the Ambassador's analysis 
and leave that to the others.
    Mr. Schneider. Mr. Joscelyn, thoughts?
    Mr. Joscelyn. My caveat there is that while other parts of 
the al-Qaeda network have not yet been successful or attempted 
a mass casualty attack on the U.S., there is always a potential 
there for that. The problem is that many of the senior al-Qaeda 
leaders, or some of the senior al-Qaeda leaders who were part 
of that general command in Afghanistan and Pakistan have 
relocated elsewhere. For example, in Syria just last week, the 
Treasury Department highlighted a very senior al-Qaeda 
operative, a guy who was on the military committee for al-
Qaeda, he is involved, according to the Treasury Department, 
with a group in Syria that is plotting attacks against Western 
targets. So these are--their leadership is sprinkled amongst 
several different countries, not just Afghanistan and Pakistan.
    Mr. Schneider. Maybe the question, coming back to 
Ambassador Sheehan, you talk about victory or winning in 
Afghanistan. Does, however you define a victory in Afghanistan, 
just shift the battlefield, shift the front to one of these 
other areas?
    Mr. Sheehan. It will to certain extent, sir, they will 
move, I think. But by the way, I don't think there will ever be 
a definitive victory in Western Pakistan for decades. These 
people, this is at least a multigenerational fight. They are 
not going away. They are burrowed into the mountains up there. 
They are committed. We are going to be there a long, long time. 
But as Tom said earlier, they are already dispersing. And they 
already are starting to direct these--taking advantages of 
countries that have lost their rule of law, or have 
ungovernmental places now we are seeing in Northern Nigeria. 
They take advantage of those places, Mali, Libya, et cetera, 
and are stirring up a very fertile ground to recruit radical 
jihadis of the same ideology. So they are already doing that, 
but having said that, I still don't think they are going away 
in Pakistan.
    Mr. Schneider. I know I have a time limit. I turn to Mr. 
Sedney. As you talk, where you are going to see these lines, I 
think, is where there seams, whether it is in Nigeria, or in 
Syria, where you have failed states, and there are gaps and 
seams that these groups can operate within. The challenge 
ultimately becomes, as you talked about it, Mr. Sedney, a sense 
of ideology, or destiny. Is there any path, any strategy we can 
put together that will address the ideology as opposed to just 
the tactics of terrorism?
    Mr. Sedney. Yes, there is, and I think it is emerging 
sometimes despite our lack of a coordinated effort on that, and 
that is what is happening in Afghanistan right now because, 
yes, al-Qaeda has been trying to support the Taliban. The 
Taliban have been trying very actively, but in the elections 
that took place last month in Afghanistan, young people turned 
out. And the message from these young people across all ethnic 
lines, the message for women was that the vision of the 
future--that the al-Qaeda and Taliban put out of a return to 
the caliphate of an inward-looking, backward-looking, 
oppressive regime, they rejected that. In the Afghan media, the 
number one headline after the elections was, we said no to the 
Taliban. By saying no to the Taliban, they said no to al-Qaeda. 
That is a competing vision for the future that can be 
applicable in other societies as well. Every one of the other 
societies you mentioned, every other place that al-Qaeda can go 
also has young people.
    That is the battleground. And if Afghanistan, despite all 
of the problems it has had, can be a success, then those other 
states can be a success, too. But I agree entirely with 
Ambassador Sheehan. This is not something that is going to 
happen by a certain date or time. It is a multigenerational 
struggle, and it is one that it is going to be very hard for us 
to have the commitment that is needed.
    Mr. Schneider. Well, thank you. I wish we could spend more 
time. I am out of time but, again, thank you for your time and 
service.
    Mr. Kinzinger. Thank you, Mr. Schneider. I now recognize 
the gentleman from Pennsylvania, Mr. Perry, for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman. Mr. Joscelyn, let me 
direct it, I am sorry, to Mr. Sedney. Do the Afghan national 
security forces currently have the capabilities and equipment 
to combat, or have the skills to combat al-Qaeda?
    Mr. Sedney. They have some of them. They have the basic 
fighting ability. They have the fighting spirit. They have the 
on-the-ground organization tactically. What they lack, are key 
enablers. The most important one is the one that Mr. Sheehan 
already highlighted is air power, both transport and attack 
aircraft as well as helicopters. They lack advanced 
capabilities in intelligence, which is really key to the kind 
of struggle they are fighting. And in areas of logistics and 
organization, they still need to make a great deal of progress.
    So, those are the kind of capabilities that require years 
more for them to be successfully acquired, and without that, 
they risk degrading in the future. So they have a good start, 
but we need to stay the course.
    Mr. Perry. I would concur with that. I just wanted to hear 
your assessment. I would turn the good Ambassador here, 
regarding a report that we have in our reading here, that in 
October 2013, there was a police raid in Islamabad regarding a 
house that was purpose built as it is described with a lab in 
the basement dedicated to the research and development of 
explosives-laden drone aircraft. If I couple that with your 
comment regarding al-Qaeda's specific, and very particular 
interest in WMD, can you put those two together for me and 
describe the threat as you see it if there is a nexus between 
the two? And then who are the enablers to that threat?
    Mr. Sheehan. Yes, sir. Everybody wants drones now and 
actually you can buy a drone in a store here in the United 
States. You can buy a helicopter with a camera on it. Putting a 
weapon on it is much more difficult. So I don't think they are 
ever going to have that capability in the near term to put a 
weapon on a drone. Will they be able to have the capability to 
perhaps purchase some kind of rudimentary drone, perhaps. But I 
don't see it.
    On WMD, this is something that I focused on for about 15 
years, al-Qaeda's ability to get it. Right now, you know, they 
had a ricin program. They might have had anthrax program. They 
have looked around for dirty nuclear bombs, radiological bombs, 
a little bit on the chemical side, but they really kind of 
given up on that right now. They would like to go back to it, 
but quite frankly, it is too hard for them. The reason it is 
too hard for them, because they are under enormous pressure. 
They are under enormous pressure in their headquarters and they 
are under enormous pressure also in Europe and the United 
States. Prior to 9/11, and I was Ambassador prior to 9/11. I 
was doing al-Qaeda before 9/11. There was no pressure on this 
organization, overseas, or in the U.S. They moved around, 19 
people came into the United States, blow up our Trade Center 
with impunity. That has dramatically changed.
    They are still here in the United States, but they are 
under pressure. It is difficult for them to obtain those type 
of weapons. And when I was at NYPD, we worked very hard to 
protect a radiological chemical and other sources that they 
might be able to tap to conduct that type of attack. So right 
now I think they are years away from coming up with that kind 
of capability.
    Mr. Perry. So who would be, you know, their enablers in 
that regard? If you talk about weaponizing a crude drone, not a 
drone, with VX, or something of that nature. Are we looking at 
Syria? Are we looking at friends in Pakistan in the government, 
in the intelligence services? Who are we looking at?
    Mr. Sheehan. Yes, sir, it is a good question. I think it is 
a--you are right, that it would probably require a state to 
give them real capability for a WMD. It is just too hard to 
weaponize these things. I have spent a lot of time trying to 
figure those--how to weaponize them and it really comes down to 
a state, otherwise, it is going to be a very small attack. 
Certainly, Syria won't help al-Qaeda. They are fighting them. 
The Pakistanis helping al-Qaeda, that is our worst nightmare. 
We hope that never happens.
    Mr. Perry. And is there evidence to support the theory that 
there are members of the Pakistani Government, whether it is 
the intelligence services or otherwise, that are willing to be 
very helpful in that regard? How much of a concern do we have, 
should we have? When I talk about Syria, I just meant the 
environment where the opportunity exists to receive the 
contraband, so to speak.
    Mr. Sheehan. Right, sir. I believe that perhaps this is one 
of our most important intelligence requirements is to keep our 
eye on the Pakistani intelligence and other people as to their 
relationship with some of these groups. Because certainly, they 
have had long, long relationships, decades of relationships 
with some of these families, people, and groups, and would it 
be impossible for some of these, either rogue or directed 
people, to provide dangerous weapon systems to some of these 
organizations? It is possible. Especially the organizations 
that they might arm to attack in Kashmir or in India. Those 
same type of weapon systems can then be turned against us. But 
I don't believe the Pakistani army, Pakistani Government would 
count on such an activity. It would come from below, perhaps, 
from a rogue, and I don't see any evidence of that happening 
right now. It is something we have to keep an eye on.
    Mr. Perry. Thank you. Thank you, Mr. Chairman.
    Mr. Kinzinger. Thank you, Mr. Perry. At this point, seeing 
now that it is--we will go into a quick round two, and then we 
will let you all go, because I think we have a few more 
questions, still. Let me just ask to whoever can answer this 
question. I recently saw an article in The Daily Beast. It was 
entitled, ``CIA falls back in Afghanistan.'' Describe the CIA 
efforts to dismantle their operations in Afghanistan, and how 
is this going to be harmful to the effect to combat al-Qaeda in 
Afghanistan? I will just throw that out to whoever can answer 
that.
    Mr. Sedney. To a large degree, I know I am really not in a 
position to comment on that issue in an open hearing, Mr. 
Chairman. I would have to be in a closed hearing to make a--to 
give you my views on that issue. One thing that I will say, 
that I did travel to Afghanistan in December and a number of 
Afghans raised concerns to me about that issue. That is 
something that I learned in an unclassified setting. But aside 
from that, I apologize, I am not able to answer that question 
in this setting.
    Mr. Kinzinger. Understood. Go ahead, sir.
    Mr. Joscelyn. The key commander who figures in those press 
reports is Farouq al-Qahtani and to your point, Congressman, 
about al-Qaeda and the Taliban not having a lot of success 
against us historically in a direct fight against American 
forces, that is absolutely right. Unfortunately, Farouq al-
Qahtani is one of the few guys who actually did have some 
success against American forces in a head-to-head fight. And he 
is the head of the organization in Kunar and Nuristan.
    Now, those are remote regions of Afghanistan. That is a 
good thing. However, I think if you look at al-Qaeda more 
wholistically, you realize that we need that ongoing CIA help 
to fight them beyond Kunar and Nuristan.
    Mr. Kinzinger. And does core al-Qaeda still matter? I mean, 
I still get confused with the idea of core al-Qaeda, and you 
did a good job of explaining it, but to me, I think core al-
Qaeda kind of seems like a way of hedging this idea that we 
have al-Qaeda on the run. We have got core al-Qaeda on the run 
even though we have these huge offshoots. So does core al-Qaeda 
still matter? I will start with you.
    Mr. Joscelyn. I think the hedging point is right. I mean, 
that was the only way to argue that al-Qaeda was being 
decimated or defeated, because if you look at their expansion 
elsewhere, it is kind of hard to argue that. But on a day-to-
day basis at our Web site, you can see us document 
communications to and from al-Qaeda senior leadership including 
Zawahiri and others in the core ``al-Qaeda'' with their 
regional branches, and that includes in Yemen, or Syria, or 
else elsewhere.
    So, yeah, they do still matter. They are providing--and it 
is not just ideological Shahidi guidance. We find them 
providing, on occasion, tactical guidance in the day-to-day 
fight.
    In fact, I will point back to that Treasury Department 
designation last week, a senior al-Qaeda member in that 
designation relocated from Pakistan to Syria, and one of the 
reasons he did was to help the al-Qaeda affiliate groups 
acquire heavy weapons from different sources and throughout the 
Gulf.
    Mr. Kinzinger. I am going to go ahead and yield back my 
time, and I am going to recognize Mr. Sherman for 5 minutes.
    Mr. Sherman. Thank you. It is clear that Islamic extremism 
hasn't been defeated. We have won some important victories. I 
want to get away from the partisanship of, oh, well, al-Qaeda--
all Islamic extremism hasn't been destroyed, therefore this 
President is bad, that President is good. Al-Qaeda happened 
during this administration. Bin Laden was killed during that 
administration. It is one effort. And Truman and Eisenhower 
weren't bad Presidents just because at the end of their terms 
the Soviet Union had not been defeated.
    We are engaged in a long war. We don't like long wars. We 
are going to have to win this long war. And I just got out of a 
hearing called Pivot to Asia. Well, what is that pivoting away 
from? I mean, I watched some basketball games. You can't pivot 
and then pivot. The fact is that a few rocks in the Pacific 
that remain uninhabited even though they are off the coast of 
the most teaming continent, remain totally useless and 
uninhabited throughout history, which is why nobody knows who 
owns them, should not be our focus at a time when, as the 
gentlemen have testified, there are forces that would pull off 
another 9/11 if not confronted every single day.
    I am trying to understand the Pakistani Government. As far 
as I understand, those in Islamabad would not kill each other. 
That is to say, you don't have an ISI general who would kill 
another ISI general or a regular Pakistani army general or even 
one of the elected leaders. Okay, there is one former unelected 
leader who is in prison now. But aside from that.
    And yet, correct me if I am wrong, there are elements of 
the Pakistani Government waging effective war on the terrorists 
and there are elements of the Pakistani Government cooperating 
with the terrorists. I see some nodding heads, but perhaps I 
could get an oral response.
    Mr. Joscelyn. Well, I think that's right. I think there are 
two issues: One is the direct relationship between parts of the 
military intelligence establishment in Pakistan and al-Qaeda. 
And I think those relationships do exist. Carlotta Gall from 
The New York Times reported about the ISI's bin Laden's death. 
I think the best way to fact-check that and get into what the 
actual relationship is, and how that works, is probably to have 
a more complete discussion about bin Laden's documents, the 
extensive files that were found in his compound and what they 
say. There has been reporting about what is in those files, but 
they haven't been released. And there has been no sort of 
systematic accounting for what is in them in this regard 
publicly. I mean, from your perspective.
    The second thing is----
    Mr. Sherman. Then maybe Congress should get a classified 
briefing as to what is in those documents, at least our 
subcommittee, since that is the heart of what we do.
    Mr. Joscelyn. I think that, Congressman, that is a great 
idea. I think all congressmen should get a full briefing on the 
bin Laden documents, and I mean the full contents of the 
documents, and exactly asking how many files were captured, how 
many have been exploited and translated and what they say in 
totality about the----
    Mr. Sherman. The idea that the administration or any 
administration would actually tell Members of Congress 
anything, is a wonderful fantasy.
    Mr. Joscelyn. It is a wonderful fantasy. But a quick second 
point is, there is also the question about the Pakistani 
establishment as the U.N. calls it, relationship with these 
other groups that all allied with al-Qaeda. In fact, we have 
this monograph I contributed a chapter for my think tank where 
I describe how all these groups, that are sponsored by the ISI 
that are creatures of the ISI establishment are also allied 
with al-Qaeda. And that is part of how al-Qaeda gets the 
strategic depth. And I lay it all out in great detail how that 
works, from the Afghan Taliban, to Lashkar-e-Toiba----
    Mr. Sherman. Is there elements of the Pakistani 
establishment who would be killed by the very people being 
aided by the Pakistani establishment?
    Mr. Joscelyn. Well, that is right.
    Mr. Sherman. I see Ambassador Sheehan nodding, but how--you 
know, those people that want to murder me, I usually don't 
donate to. Can anybody give us----
    Mr. Joscelyn. Right.
    Mr. Sheehan. If I could.
    Mr. Sherman. I do want to bring in one other factor, and 
that was, our imposition of Karzai in Kabul creating the risk 
in Pakistani military thinking, to being attacked from both 
sides, a large Indian Embassy in Kabul, which I am sure is 
doing wonderful development work, but there are so many other 
poor countries around the world which could benefit from that. 
And of course, it rings alarm bills in Islamabad. Why--so I can 
understand a bit why some in Islamabad say well, we need the 
Taliban because we can't trust Kabul, you know, why we didn't 
install somebody who could--who is more acceptable to Pakistan 
in Kabul, I don't know, but that was a long time ago. 
Ambassador Sheehan.
    Mr. Sheehan. One other observation I will try to talk a 
little bit about Pakistan. In 2002 and 2003, there were three 
attempts on the life of President Musharraf. At that time he 
said, wait a second, what is going on here? These are groups 
that my own organization is supporting and he did turn against 
them fairly aggressively in that period.
    Mr. Sherman. So that was with the second or third 
assassination.
    Mr. Sheehan. The third attempt.
    Mr. Sherman. Okay.
    Mr. Sheehan. But I think in order to understand Pakistan, 
you have to understand their history and the trauma they have 
gone through when Bangladesh broke off, and Balochistan almost 
broke off, and Pashtunistan, they are always trying to break 
off. And so Pakistan is paranoid about the break up of its 
state with good reason, by the way. It is not a state that 
truly exists. It is a state that is organized ad hoc, after the 
World War II, and----
    Mr. Sherman. So they are paranoid not only of India, but 
also of separatism.
    Mr. Sheehan. That is right. And so right now what they are 
trying to do, is control Pashtun's power within their Federal 
tribal areas and in Afghanistan to make sure they control that 
so that they will never have a breakup of their state. That is 
one of the reasons. It is much more complicated than that. But 
I think you have to understand in terms of their paranoia about 
a breakup of the state, also they talk about strategic depth 
about India, which I never really quite understood, but I do 
understand their desire to control those areas of Pashtunistan, 
and what they do is they ride the strong horse to control that. 
And often that strong horse may be a group like the Haqqani 
network or others that are contrary to their own interest.
    Mr. Sherman. Mr. Sedney.
    Mr. Sedney. A couple of points. I agree with what my co-
panelists said, but it is even more complicated than that, in 
response to your point, Representative Sherman. Even sometimes 
the fact that somebody wants to kill you is outweighed by the 
fact that they are even more valuable to you because of what 
they can do to people who are more likely to kill you. In other 
words, there is a calculation here. If I am really good at 
killing you, and Mr. Sheehan is less good at killing you, maybe 
you will support him, even though he wants to kill you, if he 
will attack me. So that is the kind of complicated equation 
that the Pakistanis find.
    Mr. Sherman. But in that analysis, Karzai would have to be 
wanting to kill Pakistani leaders, and last I checked, that 
wasn't his objective.
    Mr. Sedney. Well, President Karzai and a number of other 
Afghans over the years, have raised the issue of what is called 
Pashtunistan which is essentially an extension of Afghanistan 
to the banks of the Indus, which goes right to the heart of 
that state identity that Ambassador Sheehan was saying. But one 
final point about Pakistan that is important. Pakistan is not a 
country. It is not a government. It is--there are a number of 
systems there. The most important overwhelming one is the 
military intelligence one. This is a country where last month 
Hamid Mir, the Larry King, if you will, of Pakistan, the number 
one journalist interviewer, who had interviewed almost all of 
the top leaders of Pakistan on his show, was the subject of an 
assassination attempt. He, before the assassination attempt, 
had communicated to his family that if such an assassination 
attempt took place it was ISI that was trying to kill him. So 
just imagine in the United States, if----
    Mr. Sherman. There are many in our establishment that would 
want to kill various journalists, but--so far that hasn't 
occurred.
    Mr. Sedney. That is the kind of complicated geography of 
politics and terrorism that the Pakistanis live under. And this 
is a country that has some serious structural problems, as 
Ambassador Sheehan has mentioned. That is until they are solved 
which won't be for years, the al-Qaeda threat is going to 
remain.
    Mr. Sherman. And how many nuclear weapons do they have in--
don't bother answering.
    Mr. Kinzinger. All right. The gentleman yields back. And I 
now recognize the gentleman from Arkansas, Mr. Cotton, for 5 
minutes.
    Mr. Cotton. Thank you. And thank you all for your time 
today. I read with interest over the weekend some news reports 
about FBI Director James Comey who was reflecting on his early 
tenure at the Bureau saying that when he had entered, he 
expected to put the FBI back in its traditional footing of law 
enforcement based on the public statements of the 
administration and al-Qaeda being on the run.
    He now says, and this is a quote from those stories:

        ``I didn't have anywhere near the appreciation I got 
        after I came into this job just how virulent those 
        affiliates had become. They are both many more than I 
        appreciated, and they are stronger than I 
        appreciated.''

    Starting with you, Mr. Joscelyn, and then moving from right 
to left, my right, your left, do you care to comment on what 
Mr. Comey as a private citizen might have been missing and now 
what he might be seeing as a senior official in the 
administration?
    Mr. Joscelyn. Well, I think the simple fact of the matter 
is that they are putting the organizational relationships aside 
for a moment, and that is my specialty, but putting that aside. 
There are now more groups fighting in al-Qaeda's name or in al-
Qaeda's ideology, or espousing al-Qaeda's style of jihad than 
ever, you know, and that goes from Africa, throughout the 
Middle East, into South Asia. And so, you know, if you actually 
delve into that each story is different in each location, but 
you now have a threat that is much different than the one that 
existed on 9/11. In some places it is a lesser threat, in some 
places it is a growing threat and becoming more problematic.
    Mr. Cotton. Mr. Ambassador?
    Mr. Sheehan. I think there is two parts to it, sir. One, he 
was getting intelligence briefs internationally. As Tom had 
said, al-Qaeda is spreading and taking advantage of unlawful 
places all around the world and growing in strength in a very 
troubling way. But he also was probably briefed domestically. 
When I was at NYPD, I was part of the Joint Terrorism Task 
Force in New York City, and he probably found all of these 
briefings about--within the United States the types of folks 
that he needs to worry about. That right now, that the ones 
that I worried about when I was in New York City were the ones 
that would travel to Pakistan and come back, like Faisal 
Shahzad, the Times Square bomber, or those that were willing to 
get support from the outside and conduct an operation, and some 
like the Boston bombers who did it pretty much on their own.
    So I am sure he was getting those briefings, and probably 
was surprised to find how many people within the United States, 
given the chance, would be willing to take violence against 
American citizens.
    Mr. Cotton. And Mr. Sedney?
    Mr. Sedney. I think that the new FBI director went in 
thinking the way most Americans do, that this is really 
something that has pretty much passed, this threat from al-
Qaeda. And going back to the point that Ambassador Sheehan 
made, in our military, our intelligence, our law enforcement 
agencies over the last 12-plus years, have made an incredible 
effort. They have been hugely successful. A lot of that success 
is not known. People are safe today. People are alive today 
because of the many plots that have been stopped, and unless 
you know all of the things that are coming after us, and unless 
you know that they have been stopped and most of that can never 
be told, then you don't appreciate the threat.
    And I think that is, in many ways, a core message from all 
of us here, that those threats are still happening, and the 
threat of more to come is still happening. And yes, this has 
been a long war. It is going to continue to be a long war, but 
if we don't keep fighting it, it won't be just something that 
we will read about in history books because then there will be 
a question of whether there is history books to read.
    Mr. Cotton. Thank you. The second news report I read with 
interest recently said that Iran is recruiting Afghan refugees, 
paying them several hundred dollars a month to fight in Syria, 
on behalf of Bashar al Assad. I would presume transporting them 
through Iran, through Herot and Farah Provinces. The reports 
alluded to them being Shiites. I was wondering if you would 
care to comment on the report and whether, in fact, this is 
happening, where they are coming from in Afghanistan, and if 
they are. But secondarily, do we see much evidence of links 
between al-Qaeda in the Afghan-Pakistan border region doing the 
same on the Sunni side in Syria? Again, starting with Mr. 
Joscelyn.
    Mr. Joscelyn. Well, I will take the latter part. Actually, 
there is this relationship that I have documented and it is 
very curious between al-Qaeda and the Iranian regime. And this 
administration in July 2011, December 2011, February 2012, 
October 2012, and 2013, and again earlier this year, has 
repeatedly, through the State Department and the Treasury 
Department, documented the relationship between the Iranian 
regime and al-Qaeda the fact that there is this facilitation 
network on Iranian soil that al-Qaeda uses to move fighters 
around to Syria and elsewhere.
    So this is something that the core, or general command 
leadership in AFPAK is sort of very interested in doing and is 
doing through Iranian soil, so it doesn't surprise me.
    Mr. Cotton. Mr. Sheehan.
    Mr. Sheehan. I agree with Tom, and it is interesting we 
talk about Pakistan's dysfunction. The Iranians do the same 
thing. Here they are supporting al-Qaeda members coming through 
their country to join forces that are then fighting against 
their own surrogates in Syria and against Assad who they are 
supporting. So they, too, all operate on both sides of the 
fence, and it is somewhat interesting. I have been out of 
government. I read the same report, sir, and I believe it to be 
plausible. And they are probably Shi'as that are being paid, 
mercenaries. The Iranians are paying people to fight that war, 
primarily Hezbollah, and others to help the Assad regime fight 
the opposition.
    Mr. Cotton. And Mr. Sedney.
    Mr. Sedney. I agree. Again, this is another complex issue. 
The al-Qaeda is clearly anti-Shi'a. Al-Qaeda is clearly anti-
Iran, but al-Qaeda has had leadership figures in Iran under the 
semi-protection of the Iranian Government since certainly 2002. 
And so Iran has been protecting those whose ideology is to 
destroy the state. The role of the United States there is 
important because going back to the point that I made to Mr. 
Sherman, Iran also sees the United States as an enemy, and 
certainly elements of the Iranian security forces are ready to 
use any tool, even those that might threaten themselves, in 
order to be able to do things that undermine the United States. 
But this is a complicated thing. It is not just a good guy 
versus bad guy. There are many varieties of bad guys out there.
    Mr. Cotton. Thank you. I see my time, but hopefully not the 
witness' patience is expired.
    Mr. Kinzinger. All right, the gentleman yields back. Seeing 
no other questions, the chair wishes to thank our witnesses and 
the subcommittee stands adjourned.
    [Whereupon, at 3:41 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
